Department of Health and Human Services
                   OFFICE OF

              INSPECTOR GENERAL





 SERVICIOS SUPLEMENTARIOS DE

    SALUD, INC., IMPROPERLY

      CLAIMED MEDICARE

   REIMBURSEMENT FOR SOME

       HOSPICE SERVICES



  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                    James P. Edert

                                               Regional Inspector General

                                                   for Audit Services


                                                       August 2014

                                                      A-02-11-01017

                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as

 questionable, a recommendation for the disallowance of costs

 incurred or claimed, and any other conclusions and

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating

 divisions will make final determination on these matters.

                                      EXECUTIVE SUMMARY


 Servicios Suplementarios de Salud, Inc., improperly claimed at least $450,000 in Medicare
 reimbursement for hospice services.

WHY WE DID THIS REVIEW

The Medicare hospice benefit allows providers to claim Medicare reimbursement for hospice
services provided to individuals with a life expectancy of 6 months or less and who have elected
hospice care. Previous Office of Inspector General reviews found that a high percentage of
hospice claims did not meet certain Medicare requirements.

Our objective was to determine whether hospice services claimed for Medicare reimbursement
by Servicios Suplementarios de Salud, Inc. (the Hospice) complied with Medicare requirements.

BACKGROUND

Federal regulations provide the Medicare hospice benefit to eligible beneficiaries. To be eligible
for the Medicare hospice benefit, a beneficiary must be entitled to Medicare Part A and be
certified as having a terminal illness with a life expectancy of 6 months or less if the disease runs
its normal course. Inclusion in the Medicare hospice program is voluntary and can be revoked at
any time by the beneficiary.

HOW WE CONDUCTED THIS REVIEW

Our review covered 5,801 beneficiary-months for which the Hospice received Medicare
reimbursement totaling $14,485,126 for hospice services provided during the period July 1,
2008, through June 30, 2010. A beneficiary-month includes all hospice services provided to a
beneficiary during 1 month. We reviewed all Medicare payments for hospice services related to
our random sample of 100 beneficiary-months.

WHAT WE FOUND

The Hospice claimed Medicare reimbursement for some hospice services that did not comply
with certain Medicare requirements. Of the 100 beneficiary-months in our random sample for
which the Hospice claimed Medicare reimbursement, 82 beneficiary-months complied with
Medicare requirements, but 18 did not.

The improper payments occurred because the Hospice did not have adequate policies and
procedures to ensure that it documented hospice services, including beneficiaries’ hospice
election and/or revocation certifications.

On the basis of our sample results, we estimated that the Hospice improperly received at least
$453,558 in Medicare reimbursement for hospice services that did not comply with certain
Medicare requirements.




Servicios Suplementarios de Salud Medicare Hospice Services (A-02-11-01017)                       i
WHAT WE RECOMMEND

We recommend that the Hospice:

     •	 refund $453,558 to the Federal Government and

     •	 strengthen its procedures to ensure that hospice services are documented in accordance
        with Medicare requirements.

SERVICIOS SUPLEMENTARIOS DE SALUD, INC., COMMENTS
AND OUR RESPONSE

In written comments on our draft report, the Hospice did not indicate concurrence or
nonconcurrence with our recommendations; however, it stated that it agreed with our
determinations for 13 of the 18 sampled beneficiary-months that we identified as noncompliant.
Under separate cover, the Hospice provided additional documentation for the 5 sampled
beneficiary-months for which it did not agree with our determinations. The Hospice also stated
that it has completed a corrective action plan to address our findings and ensure that it complies
with Medicare requirements.

After reviewing the Hospice’s comments and the additional documentation, we maintain that our
findings and recommendations are valid.




Servicios Suplementarios de Salud Medicare Hospice Services (A-02-11-01017)                     ii
                                                    TABLE OF CONTENTS


INTRODUCTION ..............................................................................................................1


     Why We Did This Review ............................................................................................1


     Objective .......................................................................................................................1


     Background ...................................................................................................................1

         The Medicare Program ........................................................................................1

         The Medicare Hospice Benefit ............................................................................1

         Servicios Suplementarios de Salud, Inc. ..............................................................2


     How We Conducted This Review.................................................................................2


FINDINGS ..........................................................................................................................3


     Beneficiary Eligibility Not Documented ......................................................................3


     Services Not Supported................................................................................................ 4


     Beneficiary Did Not Elect Hospice Care or Had Revoked Election ........................... 4


RECOMMENDATIONS ................................................................................................... 5


SERVICIOS SUPLEMENTARIOS DE SALUD, INC., COMMENTS

 AND OFFICE OF INSPECTOR GENERAL RESPONSE............................................. 5


APPENDIXES


     A: Audit Scope and Methodology .............................................................................. 6


     B: Sample Design and Methodology .......................................................................... 8


     C: Sample Results and Estimates................................................................................ 9


     D: Servicios Suplementarios de Salud, Inc., Comments .......................................... 10





Servicios Suplementarios de Salud Medicare Hospice Services (A-02-11-01017)                                                                iii
                                              INTRODUCTION



WHY WE DID THIS REVIEW


The Medicare hospice benefit allows providers to claim Medicare reimbursement for hospice
services provided to individuals with a life expectancy of 6 months or less and who have elected
hospice care. Previous Office of Inspector General reviews found that a high percentage of
hospice claims did not meet certain Medicare requirements.

OBJECTIVE

Our objective was to determine whether hospice services claimed for Medicare reimbursement
by Servicios Suplementarios de Salud, Inc. (the Hospice) complied with Medicare requirements.

BACKGROUND

The Medicare Program

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Medicare Part A, also known as Hospital Insurance, provides for the coverage of various types of
services, including hospice services. CMS contracts with four Home Health and Hospice
Medicare Administrative Contractors (MAC) to process and pay Medicare hospice claims.

The Medicare Hospice Benefit

Medicare Part A covers hospice services provided to eligible beneficiaries (sections 1812(a)(4)
and (5) of the Act). The Medicare hospice benefit has four levels of care: routine home care,
continuous home care, inpatient respite care, and general inpatient care. Each level has an all-
inclusive daily rate that is paid through Part A. 1 The goals of hospice care are to help terminally
ill beneficiaries continue life with minimal disruption and to support beneficiaries’ families and
other caregivers throughout the process. This care is palliative (supportive), rather than curative
and includes, among other things, nursing care, medical social services, hospice aide services,
medical supplies, and physician services.

To be eligible for hospice care, a beneficiary must be entitled to Medicare Part A and be certified
as having a terminal illness with a life expectancy of 6 months or less if the disease runs its
normal course. 2 Upon a beneficiary’s election of hospice care, the hospice assumes
responsibility for the medical care of the beneficiary’s terminal illness. The beneficiary waives

1
    42 CFR § 418.302.
2
    Sections 1814(a)(7)(A) and 1861(dd)(3)(A) of the Act and 42 CFR § 418.20.


Servicios Suplementarios de Salud Medicare Hospice Services (A-02-11-01017)                       1
all rights to Medicare payment for services related to the curative treatment of the terminal
condition or a related condition. 3 Inclusion in the Medicare hospice program is voluntary and
can be revoked at any time by the beneficiary. 4

Beneficiaries are entitled to receive hospice care for two 90-day periods, followed by an
unlimited number of 60-day periods. 5 At the start of the initial 90-day period of care, the
hospice must obtain written certification of the beneficiary’s terminal illness from the hospice
medical director or the physician member of the hospice interdisciplinary group and the
beneficiary’s attending physician, if any. For subsequent periods, a written certification by the
hospice’s physician is required. 6 The initial certification and all subsequent re-certifications
must include a brief narrative explanation of the clinical findings that support a life expectancy
of 6 months or less. 7

Servicios Suplementarios de Salud, Inc.

The Hospice is a nonprofit organization that has provided hospice services to Medicare
beneficiaries residing in Puerto Rico since 1991. During the period July 2008 through June
2010, the Hospice employed 152 health care professionals and served 9 regional areas
throughout Puerto Rico.

National Government Services, Inc., (NGS) serves as the Home Health and Hospice MAC for
hospice providers in Jurisdiction 6, which includes Puerto Rico.

HOW WE CONDUCTED THIS REVIEW

Our review covered 5,801 beneficiary-months for which the Hospice received Medicare
reimbursement totaling $14,485,126 for hospice services provided during the period July 1,
2008, through June 30, 2010. A beneficiary-month includes all hospice services provided to a
beneficiary during 1 month. We reviewed all Medicare payments for hospice services related to
our random sample of 100 beneficiary-months. For certain sample items, we sought NGS’s
assistance in determining whether the associated hospice services met Medicare requirements.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.


3
    Section 1812(d)(2)(A) of the Act.
4
    Section 1812(d)(2)(B) of the Act.
5
    42 CFR § 418.21(a).
6
    42 CFR § 418.22(c).
7
    42 CFR § 418.22(b)(3).


Servicios Suplementarios de Salud Medicare Hospice Services (A-02-11-01017)                      2
Appendix A contains the details of our audit scope and methodology, Appendix B contains our
statistical sampling methodology, and Appendix C contains our sample results and estimates.

                                                      FINDINGS

The Hospice claimed Medicare reimbursement for some hospice services that did not comply
with certain Medicare requirements. Of the 100 beneficiary-months in our random sample for
which the Hospice claimed Medicare reimbursement, 82 beneficiary-months complied with
Medicare requirements, but 18 did not. Specifically:

        •	 For 8 beneficiary-months, the associated beneficiary’s case record did not contain
           documentation to support the beneficiary’s eligibility for hospice services.

        •	 For 6 beneficiary-months, the associated beneficiary’s progress notes did not meet
           Medicare requirements for some of the services provided.

        •	 For 4 beneficiary-months, the Hospice claimed Medicare reimbursement for hospice
           services provided to a beneficiary who had not elected hospice care or had revoked their
           election.

The improper payments occurred because the Hospice did not have adequate policies and
procedures to ensure that it documented hospice services, including beneficiaries’ hospice
election and/or revocation certifications.

On the basis of our sample results, we estimated that the Hospice improperly received at least
$453,558 in Medicare reimbursement for hospice services that did not meet Medicare
requirements.

BENEFICIARY ELIGIBILITY NOT DOCUMENTED

To be eligible for the Medicare hospice benefit, a beneficiary must be entitled to Medicare
Part A and be certified as being terminally ill. 8 For the initial period of care, the hospice must
obtain from the hospice’s physician and the beneficiary’s attending physician (if any) a written
certification of the terminal illness that specifies the beneficiary’s prognosis is for a life
expectancy of 6 months or less if the terminal illness runs its normal course. 9 The certification
must be accompanied by clinical information and other documentation that supports the medical
prognosis and must be signed and dated by the physician(s). The written certification must be
obtained before the hospice submits a claim for payment. 10

For 8 beneficiary-months, the Hospice claimed Medicare reimbursement for services provided to
a beneficiary for whom the Hospice did not provide documentation that the beneficiary was

8
    Sections 1814(a)(7)(A) and 1861(dd)(3)(A) of the Act and 42 CFR § 418.20.
9
    For subsequent periods of care, only a written certification from the hospice’s physician is required.
10
     42 CFR § 418.22.


Servicios Suplementarios de Salud Medicare Hospice Services (A-02-11-01017)                                  3
eligible for the Medicare hospice benefit. Specifically, the beneficiary’s case records did not
contain a written certification of the beneficiary’s terminal illness.

SERVICES NOT SUPPORTED

Payments to Medicare providers shall not be made unless the provider has furnished information
necessary to determine the amounts due the provider. 11 In this respect, the hospice must
maintain a clinical record containing past and current findings for each hospice patient. All
entries must be legible, clear, complete, and appropriately authenticated and dated in accordance
with hospice policy and currently accepted standards of practice. 12

For 6 beneficiary-months, the Hospice claimed Medicare reimbursement for services that were
not adequately supported. Specifically, for 3 beneficiary-months, there were no progress notes in
the associated beneficiary’s case record to support physician services billed by the Hospice. For
3 other beneficiary-months, the progress notes were not signed (i.e., authenticated) by a
physician.

BENEFICIARY DID NOT ELECT HOSPICE CARE OR HAD REVOKED ELECTION

Beneficiaries eligible for the Medicare hospice benefit may elect hospice care by filing a signed
election statement with a hospice. 13 The beneficiary or their representative may revoke the
beneficiary’s election of hospice care at any time during an election period. 14

For 4 beneficiary-months, the Hospice claimed Medicare reimbursement for services provided to
a beneficiary who had not elected hospice care or had revoked their election. Specifically, for
2 beneficiary-months, there was no signed election statement in the associated beneficiary’s case
record and, for 2 other beneficiary-months, the beneficiary had revoked the hospice election.




11
     Section 1815(a) of the Act.
12
     42 CFR §418.104.
13
  42 CFR § 418.24. If the beneficiary is physically or mentally incapacitated, their representative may file the
election statement. The election statement must include the identification of the hospice that will provide care, an
acknowledgement that the beneficiary or their representative has a full understanding of the palliative rather than
curative nature of hospice care and that certain Medicare services are waived by electing hospice care, the effective
date of the election, and the signature of the beneficiary or their representative.
14
   42 CFR § 418.28. To revoke the election of hospice care, the beneficiary or their representative must file a
statement with the hospice that includes a signed statement that the beneficiary revokes election of hospice care and
the effective date of the revocation.


Servicios Suplementarios de Salud Medicare Hospice Services (A-02-11-01017)                                        4
                                       RECOMMENDATIONS


We recommend that the Hospice:

     •	 refund $453,558 to the Federal Government and

     •	 strengthen its procedures to ensure that hospice services are documented in accordance
        with Medicare requirements.

             SERVICIOS SUPLEMENTARIOS DE SALUD, INC., COMMENTS

                 AND OFFICE OF INSPECTOR GENERAL RESPONSE


In written comments on our draft report, the Hospice did not indicate concurrence or
nonconcurrence with our recommendations; however, it stated that it agreed with our
determinations for 13 of the 18 sampled beneficiary-months that we identified as noncompliant.
Under separate cover, the Hospice provided additional documentation for the 5 sampled
beneficiary-months for which it did not agree with our determinations. The Hospice also stated
that it has completed a corrective action plan to address our findings and ensure that it complies
with Medicare requirements. The Hospice’s comments appear as Appendix D.

After reviewing the Hospice’s comments and the additional documentation, we maintain that our
findings and recommendations are valid. For 3 of the 5 beneficiary-months for which the
Hospice disagreed with our determinations, the additional documentation it provided did not
relate to the sampled service month. For the other 2 beneficiary-months, we could not determine
whether written certifications were timely because the certifications were not dated by the
Hospice’s physician, as required. We also noted that the additional documentation provided for
one of these cases was not related to the beneficiary’s terminal illness and did not support a
prognosis for a life expectancy of 6 months or less.




Servicios Suplementarios de Salud Medicare Hospice Services (A-02-11-01017)                     5
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY


SCOPE

Our review covered 5,801 beneficiary-months for which the Hospice received Medicare
reimbursement totaling $14,485,126 for hospice services provided during the period July 1,
2008, through June 30, 2010. A beneficiary-month includes all hospice services provided to a
beneficiary during 1 month.

We did not assess the Hospice’s overall internal control structure. Rather, we limited our review
of internal controls to those applicable to our objective. Specifically, we obtained an
understanding of the Hospice’s procedures related to documenting and billing Medicare for
hospice services.

We conducted our fieldwork at the Hospice’s central office in San Juan, Puerto Rico.

METHODOLOGY

To accomplish our objective, we:

    •	 reviewed applicable Medicare laws, regulations and guidelines;

    •	 met with CMS officials to gain an understanding of the Medicare hospice benefit;

    •	 discussed with NGS officials hospice billing requirements and recent edits it 

       implemented related to hospice services;


    •	 met with Hospice officials to gain an understanding of the Hospice’s procedures related
       to the administration of its hospice program;

    •	 obtained from the CMS National Claims History file a sampling frame of 5,801
       beneficiary-months, totaling $14,485,126, for the period July 1, 2008, through June 30,
       2010;

    •	 selected a simple random sample of 100 beneficiary-months from the sampling frame;

    •	 obtained and reviewed case records for each of the sampled beneficiary-months to
       determine whether:

        o	 the associated beneficiary was eligible for hospice services,

        o	 the associated beneficiary had elected hospice services, and

        o	 documentation supported the services claimed;




Servicios Suplementarios de Salud Medicare Hospice Services (A-02-11-01017)                    6
    •	 reviewed claim payment data to determine whether hospice services were reimbursed
       prior to the beneficiary electing hospice care or after the hospice election had been
       revoked;

    •	 submitted case records for certain sample items to NGS for their assistance in
       determining whether the associated hospice services met Medicare requirements; and

    •	 estimated the total unallowable Medicare reimbursement paid in the total population of
       5,801 beneficiary-months.

See Appendix B for the details of our statistical sampling methodology and Appendix C for our
sample results and estimates.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Servicios Suplementarios de Salud Medicare Hospice Services (A-02-11-01017)                     7
                 APPENDIX B: SAMPLE DESIGN AND METHODOLOGY


POPULATION

The population consisted of all Medicare Part A payments made to the Hospice for a beneficiary-
month during the period July 1, 2008, through June 30, 2010. A beneficiary-month is defined as
all hospice services provided to a beneficiary by the Hospice during 1 month.

SAMPLING FRAME

The sampling frame was an Access database containing 5,801 beneficiary-months, totaling
$14,485,126. The data was extracted from the CMS National Claims History file.

SAMPLE UNIT

The sample unit was a beneficiary-month.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample of 100 beneficiary-months.

SOURCE OF THE RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General, Office of Audit
Services (OAS) statistical software.

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the beneficiary-months in our sampling frame. After generating
100 random numbers, we selected the corresponding sampling frame items.

ESTIMATION METHODOLOGY

We used the OAS statistical software to appraise the sample results. We estimated the total
amount of inappropriate Medicare payments for unallowable hospice services made to the
Hospice at the lower limit of the 90-percent confidence interval.




Servicios Suplementarios de Salud Medicare Hospice Services (A-02-11-01017)                   8
                    APPENDIX C: SAMPLE RESULTS AND ESTIMATES


                                      Sample Details and Results


                                                                         No. of        Value of
 Beneficiary-                                                          Unallowable    Unallowable
  Months in            Value of         Sample        Value of         Beneficiary-   Beneficiary-
   Frame                Frame            Size         Sample             Months         Months
      5,801          $14,485,126          100         $242,123                18        $17,961


                       Estimated Value of Unallowable Beneficiary-Months
                      (Limits calculated for a 90-Percent Confidence Interval)

                                  Point Estimate          $1,041,905
                                  Lower Limit             $ 453,558
                                  Upper Limit             $1,630,253




Servicios Suplementarios de Salud Medicare Hospice Services (A-02-11-01017)                       9
   APPENDIX D: SERVICIOS SUPLEMENTARIOS DE SALUD, INC., COMMENTS




                                     Servicios Suplementarios de Salud, Inc.
                                                         Hospicio Gr·egoria Auffant


                          H·t21 t~ll e Atcrta!o        ll4   raUeEI~no ,· R(Ios:e vt! ll   784 Aven1da Campo Rico
                                f'orC$1 Hilt                 2do Plso                           Cou,atry Club
                           8•yam6n, PR 00956            San Juan, PR 00918·3105             IUu Picdr.ts. PR 00924
                  Tel. 787·780·4010/787·780-'1·2'14      'fol. 787 763·0091/759·7036         Tel. 787 762-7666/ 769-0630
                            Fax 787·787·5787              l'ax767·75l· t909                   fax 787-762-7715




            june 23, 2014


            Mr. james P. Edert
            Regional Inspector General for Audit Services
            Department of Health and Human Services
            OfticeofAuditServices, Region 11
            jacob K. javits Federal Building
            26 Federal Plaza, Room 3900
            New York, NY 102"78

            RE: OIG Audit -Draft Report Number: A-02-11-01017

            Dear Mr. Edert:

            According to your request for submitting you our views on the draft report, about the validity of the
            facts and reasonableness of the recommendations in the report, on reference, we are providing you
            our comments as follows:

               A. Statements of concurrence
                   We agree with your findings on thirteen (13) beneficiaries -months which did not comply
                   with the Hospice Medicare requirements. We have completed our corrective action plan
                   submitted to the auditors on january 2012. Our corrective action plan included actions for
                   seven (7) identified problems relevant to the aud it's findings, except the electronic medical
                   record, which is still in the development process. We are giving annual follow up to the
                   referred action plan. and we expect to complete during the next twelve months the plan to
                   automate the medical record.

               B. NonconcuJTence statements
                   We have reviewed your Draft Report Results by Sample Case, and we h;we found that sample
                   cases No. 44, ~ 2L and 2.!1 have documented evidence at their medical records that
                   support the beneficiary's eligibility for hospice services.


                   The documented evidence at the medical record in sample case No . .lJl. also demonstrates
                   that the physician's notes met the medical requirements for the services provided.

                   We are submitting you the detailed evidence as it appears in the tive (5) audited medical
                   records, including our written clarification summary for each case. We are also including a
                   reference from the Office of Medicare Hearings and Appeals, with content relevant to the
                   audit's findings.
                                                                [1]




Servicios Suplementarios de Salud Medicare Hospice Services (A-02-11-01017)                                                10
            Thank you very much for the opportunity you are permitting us to communicate you our facts in
            regard to this report. Let us know if the comments that we are providing here in this letter, will
            change your final report.

            Sincerely,
                          ~-­
                 -   ~        .


            Carmen M. Martino
            Executive Director

            CMM; EM) lsie/Carta Conrestac16n Plan CorrecL1vo DIG Jumo 2014· Final

            C: - Mrs. Margie Col6n., DHHS/OIC/OAS AuditOl'
                -Mrs. Omayr• Cruz, DHHS/OIG/OAS Auditor




                                                                           [2)




Servicios Suplementarios de Salud Medicare Hospice Services (A-02-11-01017)                                      11
